1
/

I)\

PROOF OF SERVICE
I declare I am a party to this proceeding, over the age of 18 years and my
mailing address is 103 W. 4th Street Los Angeles, California 90013 and on October
17, 2019 the date of mailing, I caused service by prepaid first class U.S. mail in a
sealed envelope on the dates mentioned herein the document or documents set
forth below to be delivered:
CERTIFICATE OF WORD LIMIT, AND LETTER TO CLERK
OF THE COURT
Service was made on the last known address or addresses of the interested parties
mentioned below:
DEPARTMENT OF JUSTICE
c/o SOLICITOR GENERALS OFFICE
950 Pennsylvania Avenue, N.W.
WASHINGTON, DC. 20530-0001
Office of the California Attorney General
1300 “I” Street
Sacramento, California 95814-2919

CLERK OF THE COURT
Office of the State Bar
845 South Figueroa Street
Los Angeles, California 90017

GENERAL COUNSEL
State Bar of California
180 Howard Street
San Francisco, California 94105

OFFICE OF THE COURT CLERK
CALIFORNIA SUPREME COURT
350 McAllister Street Room 1295
San Francisco, California 94102-4797
OFFICE OF THE CLERK
UNITED STATES SUPREME COURT
1 First Street, N.E.
Washington, D.C. 20543

Page 3

r
' a

>

I declare under penalty of perjury under the laws of the United States of
America that the aforesaid is true, and correct. Executed this 17th of October,
2019 in Los Angeles, California.

ROBERT L. JARRETT; JR.

Page 4

a

